                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

11   Case Number: A05070045                                                                   Page 1 of 1



          OIG conducted an inquiry into the allegation that the subject1 submitted four proposals2 to NSF
          containing text and figures plagiarized fiom 16 different source documents. In response to our
          query the Subject admitted that he had copied text and figures into his proposals and identified
          additional copied material. OIG determined there was substance to the inquiry and referred the
          investigation to the Subject's in~titution.~
                                                     After investigation, the institution concluded that the
          Subject had committed research misconduct and took action against him. In response to OIG's
          investigation report (attached), NSF also determined that the subject's actions were research
          misconduct and took action to protect Federal interests. The attached letter fiom NSF's Deputy
          Director describes NSF's conclusions and actions.

          This case is closed and no further action will be taken.




 NSF OIG Form 2 (1 1/02)
                                             NATIONALSCIENCE FOUNDATION
                                                4201 WILSON BOULEVARD       .   .                    .   .
                                     .   .
                                               ARLII\IGTON,VIRGINIA 22230




               OFFICE OFTHE
              DEPUTY DIRECTOR


     CERTIFIED MAIL --RETURNRECEIPT REOUESTED




                Re:
                       -
                From 2001 - 2004, your c       l    i     e
                                                            1 - 4
                        Notice of Research Misconduct Determination




                                                                n     t     ,       , submitted four proposals




     -    -
     of Inspector General ("OIG), these proposals contained plagiarized text.

     Research Misconduct and Proposed Sanctions
             Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
     or plagiarism in proposing or performing research hnded by-NSF .. ." 45 CFR § 689.l(a). NSF
     defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
     without giving appropriate credit." '45 CFR § 689,l(a)(3). A finding of research misconduct
     requires that:

                 (1) There be a significant departure from accepted practices of the relevant research
                     community; and
                 (2) The research misconduct-becommitted intentionally, or knowingly, or recklessly; and
                 (3) The allegation be proven by a preponderance of evidence.

         45 CFR tj 689.2(c).

                p r o p o s a l s contained verbatim and paraphrased text and graphical figures
/'       from several source documents. By submitting proposals to NSF that copy the ideas or words of
        another without adequate attribution, as described in the OIG Investigative ~ e ~ o r t m

-- -                                                                                  dw
       l s r e p r e s e n t e d someone else's work as his own. In addition, he failed to ro erl
        acknowledge or credit the authors of the source documents in his proposals.
        conduct unquestionably constitutes plagiarism. I therefore conclude that his actions meet the
        definition of "research misconduct" set forth in NSF's regulations.

               Pursuant to NSF regulations, the Foundation must also determine whether to make a
       finding of misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After
       reviewing the Investigative Report and the University Committee Report, NSF has determined
       that, based on a preponderance of the evidence,-                 plagiarism was committed
       knowingly and constituted a significant departure from accepted practices of the relevant
       research community. I am, therefore, issuing a finding of research misconduct against him.

                NSF's regulations establish three categories of actions (Group I, 11, and III) that can be
       taken in response to a finding of misconduct. 45 CFR §689.3(a). Group I actions include issuing
       a letter of reprimand; conditioning awards on prior approval of particular activities from NSF;
       requiring that an institution or individual obtain special prior approval of particular activities
       from NSF; and requiring that an institutional representative certify as to the accuracy of reports
       or certifications of compliance with particular requirements. 45 CFR §689.3(a)(l). Group LI
       actions include award suspension or restrictions on designated activities or expenditures;
       requiring special reviews of requests for hnding; and requiring correction to the research record.
       45 CFR §689.3(a)(2). Group Ill actions include suspension or termination of awards;
       prohibitions on participation as NSF reviewers, advisors or consultants; and debarment or
       suspension from participation in NSF programs. 45 CFR $ 689.3(a)(3).

               In determining the severity of the sanction-toimpose for research misconduct, I have
       considered the serio'usness of the misconduct, our determination that it was knowing,as well as
       our determination that it was a part of a pattern of plagiarism. I have also considered the fact that
       m i s c o n d u c t did not have a significant impact on the research record, his
       willingness to accept responsibility for his actions, and the contrition that he demonstrated during
       the course of the investigative process. I have also considered other relevant circumstances. 45
       CFR 689.3 (b).

                In li ht of the foregoing, I am requiring that, from the date of this letter until April 10,
       2009,-                   certify that any proposal he submits as a principal investigator or co-
       principal investigator does not contain plagiarized, falsified, or fabricatedmaterial. In addition,
       for this same time period, his supervisor must provide written assurance that any proposal he
       submits does not contain any plagiarized, falsified or fabricated information. Lastly, by January
       1,2008, he must certify that he has attended a course on research ethics, and provide a copy of
       the syllabus from that course. Such certifications and assurances should be submitted in writing
       to the Office of Inspector General, 4201 Wilson Boulevard, Arlington, Virginia 22230.
           ..
r;
 Ti                                                                                                             Page 3
                    Procedures Governing Appeals
                                                      . .

     ,I/                    Under NSF's regulations                    as 30 days afier receipt of this letter to submit
      --
                .   an appeal of this 'decision, in w r i e o r of th Foundation. 45 CFR §689,10(8).
                    Any appeal should be addressed to the Director at the National Science Foundation, 4201 Wilson
                    Boulevard, klington, Virginia 22230. If we do not receive his appeal within the 30-day period,
                    this decision will become final.

                           For your information, we are attaching a copy of the applicable regulations. If you have
                    any questions about the foregoing, please c a l l , Assistant General Counsel, at (703)
                    292-8060.



                                                                          Sincerely,




                                                                          Deputy Director


                    Enclosures
                    - Investigative Report
                    - 45 C.F.R. Part 689
       National Science Foundation
       Office of Inspector General




                       Confidential
                   investigation Keport
                 Case Number A-05070045
                           21 December 2006


I
I
    This Gnfidential Investigation Report is the property of the NSF OIG and may be &closed outside
       NSF only by OIG under the Freedom of Information and Privacy Acts, 5 U.S.C f,f,552,552a.
                                                                                                          l
                                                                                                          1I
                                                                                  NSF OIG Form 22b (1 1/06)
                                                   Summary

         The Office of Inspector General (OIG) concludes that the subject committed plagiarism
in an NSF proposal submitted to the National Science Foundation (NSF). The institution's ad
hoc Investigating Committee concluded that the subject committed research misconduct. The
Institution's adjudicator accepted the Committee's findings and conclusions.

OIG concludes that the evidence in this matter supports a finding of research misconduct and
recommends that NSF:

         Send the subject a letter of reprimand concluding that his plagiarism is research
         misconduct.
         Require for 2 years after the issuance of the reprimand, that the subject certify that any
         proposals, annual and final reports, and other documents submitted to NSF in connection
         with any NSF supported activity in which he is participating do not contain and are not
         supported by plagiarized, falsified, or fabricated material.
         Require for 2 years after the issuance of the reprimand that the subject's supervisor assure
         to the best of hislher knowledge that matters submitted by the subject to NSF do not
         contain and are not supported by materials that are plagiarized, falsified or fabricated.

   and

         Require the subject to provide to NSF evidence that he has completed a course of
         instruction in research ethics and accompany that submission with the syllabus for that
         course of instruction.

                                                OIG's Inquirv

        OIG conducted an inquiry into the allegation that the subject'submitted four proposals2 to
NSF that contained text and figures plagiarized from 16 different sources including web sites and
published papers. We found several sections of text in the proposals that were identical or
substantially similar to text in the alleged source documents. In response to our inquiry letter,3
the subject admitted he had copied the text and figures without offset or attribution. He also
disclosed, in response to our request, that there were additional sections of text that had been
similarly copied without offset or attribution. In total, over a span of 3 years, the subject
submitted 4 proposals to NSF that contained 44 sections of copied text4 (approximately 164




  See Tabl. Both our inquiry and investigation referral letters contain a significant number of attachments. Only
 the attachments to the investigation referral letter (tab 28) are reproduced in this report.
 The sections range in length from a sentence to entire paragraphs.


                                                 Page 1
lines) as well as copies of 5 figures and 13 references from 18 different original sources. He
attributed his actions to "honest mistakes" that "occurred due to (i) [his] erroneous but sincere
belief that [he] could use some of the materials from a reference listed in the reference list, (ii)
[his] methodology used in proposal preparation, (iii) difficulties and complexity [he] encountered
during proposal preparation and editing process as a non-native English writer, (iv) rushing to
meet the deadline with other commitments and interruptions as a faculty member, (v) no training
and lack of knowledge on issues related to plagiarism, and (vi) [his] recent health (severe acid
reflex) [sic] and personal problems (death of [his] wife's parents in a car accident) that affected
[his] c~ncentration."~  We were not persuaded that the subject adequately explained his actions
that occurred over a 3-year period, and that incorporated a significant amount of copied
unattributed text, figures, and references. We concluded there was sufficient evidence to proceed
with an investigation and referred the investigation into this matter to his ~ n i v e r s i t ~ . ~

                                     Institution's Investigation

Review of the Evidence

        The University's inquiry concluded that the "materials show that the allegation of
plagiarism is credible, and warrant beginning an in~esti~ation."~  The ad hoc Investigating
Committee reviewed the available evidence, materials on academic integrity, and materials
provided by the subject, and interviewed the subject. Following a careful review of the identified
sections of plagiarized material the committee found that a preponderance of the evidence
supported the conclusion that the subject committed intentional plagiarism. The Committee
sorted each section into one of four types in developing its conclusion. These categories were:

          1. not a clear case of plagiarism;
          2. significant plagiarism in a background section of a proposal;
          3. significant plagiarism in a section of the proposal where the reader might easily
             conclude that the ideas of others were the subject's;
          4. plagiarism of words, ideas as well as data and result^.^




    Tab 26, page 5.
    Referral letter at Tab 28.
    See Tab 29, page 1.
8
    Tab 30, report page 12.


                                            Page 2
    With regard to each proposal and the sections withn it, the Committee found:


I         1
                I
 Proposal Type of Plagiarism Sections
          / # of Sections
                2     3   4
 First    3                  C3, El, E2                                                                       3 + figure
 Proposal       6            Al, Bl, C2, C4, E3, R1                                                           24 + figure
                      10     C5, C6, C7, C8, D l , D2, D3, D4, D5, ~ 6 '                                      18
Second 1131         1               I        I
                             F l yG1, G2, G3, HI, H2, H3, H4, H5, Q1,11,                                  1   37 + figure +     I
'Proposal                    F2, F3                                                                           table
                2            H6, ~ 7 "                                                                        6 + figure
 Third    2                  J3,J4                                                                            3
 Pro~osal       3            J1.52." K1                                                                       12
          5                  L1, MI, M2, M5, N1                                                               6
 Fourth         13           N2, N3,01,02, P l yP2, M3, N4, N6, N7,                                           44
 Proposal                    N8, M6, ~ 7 ' ~
                      2      M4, N5                                                                           6
 TOTAL 23 24 12 0                                                                                             159 lines, 4
                                                                                                              fimes. 1 table


    The table below summarizes the Committee conclusions.




    The 59 sections contained 159 lines, 4 figures, one table, and 14 references. Of these, the
    Committee concluded 36 sections (1 10 lines and 2 figures.) constituted significant plagiarism.




          sections Dl through D6 were "regarded as very serious by the committee; it is a very lengthy section, taken
         almost verbatim fiom somewhere else, and would be interpreted by readers as [the subject's] ideas." (Tab 30,
         report page 13).
    l o The Committee considered this section to be "a very serious case, perhaps bordering on using another's ideas as
       well as words." (Tab 30, report page 13). It also mentioned that the two lines in section 4 2 could "possibly" be
        included as type 2 plagiarism. We note that the subject self-identified 4 2 (see Tab 26, page 5) as uncited text fiom
        the source at Tab 22 of this report.
    I ' The Committee considered the J1 through J2 section to be "fairly substantial." (Tab 30, report page 13).
    l 2 The Committee considered 01, 02, PI, P2 and M3 to be "fairly minor cases, but . . . that there was a cumulative
        effect of the several minor cases." (Tab 30, report page 13).


                                                        Page 3
The committee considered 12 of the 36 sections to represent type 3 plagiarism (the words and
ideas of others), while the remainder was considered plagiarism of background material.13

Significant Departure from Accepted Practices

        The Committee concluded there was some support for the subject's position that his
practices were accepted within the field of computer science. l 4 It found that the IEEE standards
question whether computer science has a "more relaxed standard for plagiarism" than exists in
"fields such as h~rnanities."'~The Committee concluded that in some highly technical fields it
may be "possible" that "it is permissible to use a limited amount of verbatim text from another
source in the background, ifthe original is cited at theplace of the text in question," although
some Committee members felt that "scholarly standards do not condone such behavior."16 The
Committee concluded that even if there were more "permissive standards" in computer science,
the subject's behavior "falls out of the scope"17because:

                    a. the amount of text "lifted . . . could not be considered a limited amount,"18
                    b. some of the plagiarized text was "not obviously 'background"' and appeared
                       to be copied ideas,Ig and
                    c. most of the copied text "did not contain a reference to the original source at or
                       near the text in question."20 While the subject asserted that it was sufficient to
                       cite the source somewhere in the proposal, the Committee concluded that the
                       IEEE did not support "such a relaxed citation method."21 The Committee
                       member whose discipline is computer science felt the subject's view was not
                       acceptable and had not found support for the subject's practice in consultation
                       within his department. The Committee found it illogical for the subject to
                       presume that readers would be able to determine what text was copied from
                       another author's work in the absence of a "nearby" citation.22

The Committee concluded the subject's actions were a significant departure from the standards
in his research community.




l3 OIG also considered 14 references to be plagiarized because they were copied along with the text into the
   subject's proposals. These references were identified as sections: C9, C10, C11, J5, J6, J7, K2, N9, N10(2),
   N11(2), N12, N13.
14
   Materials available withn OIG.
15
   Tab 30, report page 11.
l6  Ibid.
l7  Ibid.
l8 Ibid.
lg Ibid.
20 Ibid.
2 1 Ibid.
22   Tab 30, report page 12.


                                                  Page 4
Intent Assessment

        The Committee concluded that a preponderance of the evidence supported its findings
that the subject's actions were "knowing and willful" and that "the evidence indicates that the
plagiarism was intentional, not the result of careles~ness."~~
                                                             It stated that the subject:

                      Should have known that the practices he engaged in . . . were not
                      accepted practices in the field and thus constituted plagiarism. We
                      do not believe that a reasonable scholar could come to that
                      conclusion, given the standards in the field as they appear to us.
                      Moreover, there was more than one case in which [the subject]
                      used largely verbatim text not in a background section but in a part
                      of the proposal that laid out his research plans.[241

        We concluded that the Committee's findings of various levels of intent, all of which
exceed NSF's minimally reckless standard,25are appropriate given its conclusion that the
subject's plagiarism fell into three different types and its assessment of the standards in the
subject's academic community.

Extenuating Circumstances

        The Committee concluded the workload and personal problems cited by the subject as
extenuating circumstances were not. It did note that the subject willingly cooperated with the
investigation.26

Pattern

        The Committee inferred, from the subject's explanation that he believed his practice to be
acceptable, that he not only engaged in it when writing the four proposals to NSF, but also when
he wrote papers. They did not review any of the subject's papers, but concluded that the
plagiarism at the core of this investigation was part of a pattern.27

Significant Impact

        The Committee concluded that the plagiarism in the four unfunded NSF proposals did not
significantly impact the research record.




23 Tab 30, report page 14.
24 Tab 30, report page 14.
25 45 C.F.R. $ 6 8 9 . 2 ( ~ ) ( 2 )
2G Ibid.
27 Tab 30, report page 15.




                                                 Page 5
Recommendations

       The Committee made six recommendations to the University adjudicator based on its
conclusion that the subject's plagiarism was "willing, knowing, or reckless in nature."28

                                Subiect's Response to Investigation Report

        In his response to the Committee's investigation           the subject stated that the
process had been "fair and deliberate" and that he did "not take issue with the bulk of the
Committee's findings or recommendati~ns."~~      He did take issue with two of the Committee's
 recommendation^,^' and its characterization of some of the copied sections. He presented his
reasons why he believed the 12 sections of Type 3 plagiarism should either not be considered
plagiarism (4 sections) or should be classified as Type 2 plagiarism (8 sections).

       The University a d j ~ d i c a t o rreviewed
                                            ~~      the Committee's report and the subject's response
and concluded that the report was accurate and fair and he accepted the Committee's
recommendations with minor modifications.

                                            Universitv Adjudication

        In his letter to the subject,33the University adjudicator concluded that he found the report
accurate and fair and he accepted, with minor modifications, the Committee's six
recommendations. In addition to the recommended letter of reprimand in which he stated that
"any further occurrence of knowing, intentional, or reckless plagiarism . . . [would] be grounds
for serious sanctions . . . possibly including termination of                  he imposed the
following requirements:

             1. Certify to the adjudicator that any proposals under consideration with any funding
                agency do not contain any plagiarism, or withdraw the proposal.
             2. Certify to the adjudicator that any research articles, patent applications, intellectual
                property disclosures, or other documents under review do not contain plagiarism, or
                withdraw the documents from consideration.
             3. Accompany any research proposals submitted to a funding agency with a written
                certification to the adjudicator that they contain no plagiarism for 2 years from 5 May
                2006.
             4. Enroll at the subject's expense in a course on research ethics and seek advanced
                approval of the adjudicator and provide documentation of course completion.


28
29
30
31


32

.
"
 .


34
     Ibid.
     ~ a 31.




     J
          b
     Tab 3 1, page 1.


                       -
     Those recommendations were that a reprimand be placed in his permanent file and that he be ineligible for a
      merit pay increase for one year.
     The ad'udicator is

     Tab 32.
     Tab 32, page 2.
                                              Dean,




                                                   Page 6
         5. Forego eligibility for any salary increase not mandated by the state during the 2006-
            2007 academic year.

                                         OIG Assessment

        OIG reviewed the Committee's investigation report, and the University's adjudication as
well as the subject's response to our request for any additional information when we informed
him of the initiation of our investigation.35OIG concluded the Committee's report was accurate
and complete and the Committee followed reasonable procedures. The Committee's
investigation report was sufficiently comprehensive that OIG concluded there was no need for
additional investigation. OIG's letter to the subject requesting comments on or additional
information about the allegations provided no new information. Therefore OIG has adopted the
Committee's report as its own.

        NSF's research misconduct regulation states that for NSF to make a finding of
misconduct, the act must be a significant departure from the accepted practices of the relevant
community, that the misconduct be committed with at least reckless intent, and that the
allegation be supported by a preponderance of the evidence.36 OIG concurs with the
Committee's conclusions that the subject's practices were a significant departure from the
accepted practices of his community, that the subject actions were knowing, and that a
preponderance of the evidence supports the Committee's conclusions about the subject's actions
and his intent.

        In deciding what final actions to take, NSF officials are to consider how serious the
misconduct was, the degree of intent associated with the subject's actions, any evidence of a
pattern, and the impact of the subject's actions on the research record.37

Seriousness

       The Committee's report contained a persuasive discussion of why it viewed the subject's
actions as serious because of the extent of plagiarism, his position as a faculty member and his
responsibility to uphold his community standards. In its discussion the committee identified five
reasons for considering the subject's plagiarism particularly serious.

        First, it found the subject's plagiarism fell into three types and concluded "these acts of
plagiarism are unequivocally wrong."

       Second, it found that a plagiarist "does wrong [when] he uses the words and/or ideas of
another without proper attribution and because he deceives readers." It concluded that
"Progress in any discipline is constituted by the discovery and dissemination of new
knowledge. Plagiarism undermines these ends. Those whose words or ideas have been


35 Tab 33.
36 45 C.F.R. 9 689.2(c)(l-3).
37 45 C.F.R. 9 689.3(b)(l-5).




                                           Page 7
appropriated without proper attribution are, of course, obvious victims of plagiarism. They
have failed to receive due credit for their contributions."

        Third, it concluded that a plagiarist "gain[s] an unfair advantage over competitors [and]
professional colleagues with whom [the plagiarist] aompetes for rewards are wronged by acts of
plagiarism." With regard to plagiarizing another's ideas the committee concluded that it "leads
readers to believe that a work is advancing knowledge in the field; but it is not doing so.
Members of the relevant intellectual community waste their time examining a work that falsely
purports to be novel. . . . Because of this, an entire intellectual community is the potential victim
of plagiarism. Progress and the growth of knowledge require honest inquiry, and passing off
another's ideas as one's own is dishonest. This is why claiming another's ideas as one's own is
an even more serious offense than directly copying selected sentences in the background section
of a grant proposal."

        Fourth, they concluded that professors and mentors of students "should be especially
diligent" because they are "examples for their students. . . . Professors who in their own work
engage in any sort of academic cheating will, justifiably, have little credibility with their
students. Professors must hold themselves to an especially high standard of intellectual
honesty."

       Fifth and finally, the Committee found that "an isolated act of plagiarism, while
wrong, is not as serious as multiple acts committed over a significant span of time. The latter
represent a pattern of behavior and manifest serious ethical shortcomings."38

        The Committee concluded that the subject plagiarized 36 sections containing text and
figures in 4 proposals to NSF submitted over a 4 year period. The Committee concluded 36
sections constituted significant plagiarism, and of that, 12 sections were words and ideas of
others while the remainder was plagiarism of background material. It found that the subject's
actions were inconsistent with the "possib[ly]" more "permissive" standards within his field.39
From both its conclusions and the recommended actions, OIG infers that the Committee viewed
the subject's misconduct as serious, but not sufficiently serious to recommend termination action
against him or any funded awards he might have.

Intent

        The Committee concluded that the subject's actions were, at a minimum, knowing, and in
fact characterized his actions as "willful, knowing, or reckless in naturev4' and "not the result of
carele~sness."~'OIG concurs.




38   Tab 30, report pages 8-10.
39   Tab 30, report page 11.
40   Tab 30, report page 15.
41   Tab 30, report page 14


                                           Page 8
Pattern

        Over four years, the subject submitted four proposals containing 36 sections of text and
figures determined to be plagiarized. The Committee concluded the subject exhbited a pattern
of plagiarism.

Significant Impact

        None of the subject's proposals were funded. None of his submitted or published papers
or other requests for hnding were examined for possible plagiarism. From this limited review,
the Committee concluded the subject's plagiarism did not have a significant impact on the
research record. OIG concurs.

                                           OIG's Recommended Disposition

             OIG recommends that to protect the Federal interest, NSF:

             Send the sub'ect a letter of reprimand concluding that his plagiarism is research
             misconduct.2'4
             Require for 2 years after the issuance of the reprimand, that the subject certify that any
             proposals, annual and final reports, and other documents submitted to NSF in connection
             with any NSF supported activity in which he is participating do not contain and are not
             supported by plagiarized, falsified, or fabricated material.43
             Require for 2 years after the issuance of the reprimand that the subject's supervisor assure
             to the best of hisher knowledge that matters submitted by the subject to NSF do not
             contain and are not supported by materials that are plagiarized, falsified or f a b r i ~ a t e d . ~ ~

       and

             Require the subject to provide to IVSF evidence that he has completed a course of
             instruction in research ethics and accompany that submission with the syllabus for that
             course of instruction.




42   A Group I action (45 C.F.R. 689.3(a)(l)).
43   Ibid.
44   Ibid.


                                                  Page 9
